IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-219
JANE CUMMINGS, PETITIONER
v.
PREMIER REHAB KELLER, P.L.L.C.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE
IN ORAL ARGUMENT AS AMICUS CURIAE, FOR DIVIDED ARGUMENT,
AND FOR ENLARGEMENT OF TIME FOR ARGUMENT
_______________
Pursuant to Rule 28 of the Rules of this Court, the Deputy
Solicitor General, on behalf of the United States, respectfully
moves that the United States be granted leave to participate in
the oral argument in this case as an amicus curiae supporting
petitioner; that the time allotted for oral argument be enlarged
to 65 minutes; and that the United States be allowed 15 minutes of
argument time.

Petitioner and respondent have consented to this

motion, and petitioner has agreed to cede ten minutes of its
argument time to the United States.

2
This case concerns whether an award of compensatory damages
against a recipient of federal financial assistance under Title VI
of the Civil Rights Act of 1964, Pub. L. No. 88-352, 78 Stat. 252
(42 U.S.C. 2000d et seq.), or other statutes that incorporate Title
VI’s remedies may include compensation for emotional distress.
The Court invited the United States to participate as amicus at
the certiorari stage, and the United States has a substantial
interest in the resolution of issues concerning the scope of
remedies under Title VI and the related civil rights statutes.
The federal government is charged with enforcing these statutes,
see, e.g., 29 U.S.C. 794a(a)(2); 42 U.S.C. 2000d-1, 18116(a), and
the United States has a significant interest in ensuring full
compliance with their nondiscrimination provisions.
The United States has previously presented oral argument as
amicus curiae in similar cases concerning the scope of remedies
under Title VI and the related civil rights statutes.

See Barnes

v. Gorman, 536 U.S. 181 (2002); Franklin v. Gwinnet Cnty. Pub.
Schs., 503 U.S. 60 (1992).
interest

in

the

question

In light of the substantial federal
presented,

the

United

States’

participation at oral argument would materially assist the Court
in its consideration of this case.

3
Respectfully submitted.
EDWIN S. KNEEDLER
Deputy Solicitor General *
Counsel of Record
OCTOBER 2021

*

The Acting Solicitor General is recused in this case.

